No.
In The

Supreme Court of The United States
Glen Plourde,
Petitioner
v.
STATE OF MAINE; DIRIGO COUNSELING CLINIC, LLC; MARIANNE LYNCH,
Penobscot County District Attorney; STEPHEN BURLOCK, Penobscot County
Assistant District Attorney, MEGANN HOLLAND, LCPC-C, ALAN ALGEE,
Clinical Director
Respondents
PROOF OF SERVICE
I, Glen Plourde, do swear or declare that on this date, September 27 2021, as
required by Supreme Court Rule 291 have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above-documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by delivering to a third-party commercial carrier
for delivery within 3 calendar days.
The names and addresses of those served are as follows:
1. Representing defendants State of Maine, Marianne Lynch, Stephen Burlock
ATTN: Aaron M. Frey
Maine State Attorney General
Maine State Attorney General’s Office
6 State House Station
Augusta, Maine 04333-0006
2. Representing defendants DIRIGO Counseling Clinic LLC, Megann Holland,
AlanAlgee
ATTN: Mark V. Franco
Drummond Woodsum
-1-

\

84 Marginal Way, Suite 600
Portland, ME 04101-2480
I declare under penalty of perjury that the foregoing is true and correct.

Executed on

-2-

